I

Appendix

COUNTY COURT
COUNTY OF ONONDAGA : STATE OF NEW YORK
- THE PEOPLE OF THE STATE OF NEW YORK.
Plaintiff,
ORDER
-vs-

Indict No. 2001-0883-1

HOWARD GRIFFITH,
Defendant.

The defendant having been convicted of Rape in the First Degree on January 10, 2002, and
having been sentenced to a terra of 5 years in state prison to be followed by 5 years of post-release
supervision, and the Hon. William D. Walsh having subsequently determined the defendant to be a
risk level 3 sex offender pursuant to Article 6-c of the New York State Corrections Law; and the
defendant having filed a pro se petition, dated January' 27, 2017, seeking a downward modification of
that assessment pursuant to the provisions of Correction Law § 168-0, and the Court having received
an updated recommendation of the New York State Board of Examiners of Sex Offenders suggesting
that the petition be denied, and the Court having assigned attorney Theodore Stenuf to assist the
defendant at taxpayer expense, and the court having scheduled a hearing on the matter for June 9,
2017, and the Court having concluded that the defendant has failed to establish sufficient pertinent
facts supporting the requested modification by clear and convincing evidence,
NOW, it is
ORDERED, that the defendant’s petition for a downward modification of his sex offender
rating level be denied.

v

Thomas J. Miller
Onondaga County Court Judge
To:

Howard Griffith
Board of Examiners of Sex Offenders
Onondaga County' District Attorney’s Office
Theodore Stenuf, Esq.

c__

cz

T3
r;v
o

1a

n~o
p°
m

zc
n;
p-t

cr-

SUPREME COURT OF THE STATE OF NEW YORK
Appellate Division, Fourth Judicial Department
L074
KA 17-01664
PRESENT: WHALEN, P.J., SMITH, PERADOTTO, DEJOSEPH, AND TROUTMAN,

JJ.

THE PEOPLE OF THE STATE OF NEW YORK, RESPONDENT,
V

MEMORANDUM AND ORDER

HOWARD GRIFFITH, DEFENDANT-APPELLANT.

WILLIAM CLAUSS, ROCHESTER, FOR DEFENDANT-APPELLANT.
HOWARD GRIFFITH, DEFENDANT-APPELLANT PRO SE.
WILLIAM J. FITZPATRICK, DISTRICT ATTORNEY, SYRACUSE (KENNETH H. TYLER,
JR., OF COUNSEL), FOR RESPONDENT.

Appeal from an order of the Onondaga County Court (Thomas J.
Miller, J.), entered July 21, 2017. The order denied defendant's
petition seeking a downward modification of his previously-imposed
classification as a level three risk pursuant to the Sex Offender
Registration Act.
It is hereby ORDERED that the order so appealed from is
unanimously reversed on the law without costs, .the petition is
reinstated, and the matter is remitted to Onondaga County Court for
further proceedings in accordance with the following memorandum:
Defendant appeals from an order that denied his petition pursuant to
Correction Law § 168-0 (2) seeking a downward modification of his
previously-imposed classification as a level three ris'k under the Sex
Offender Registration Act ([SORA] § 168 et seq.) .
As a preliminary
matter, we note that defendant's pro se notice of appeal states that
he is appealing pursuant to CPL 450.10 (1) "as it applies" to
Correction Law § 168-n.
CPL 450.10 (1), however, does not grant
defendant the right to appeal from an order denying his petition for a
downward modification of his risk level; instead, that right is
conferred by CPLR 5701 (see generally People v Charles, 162 AD3d 125,
126, 137-140 [2d Dept 2018], lv denied 32 NY3d 904 [2018]).
Nevertheless, we deem the appeal to have been taken pursuant to the
proper statute, and we therefore reach the merits of the issues raised
on appeal (see CPLR 2001).
We agree with defendant that he was denied effective assistance
of counsel, and we therefore reverse the order, reinstate the
petition, and remit the matter to County Court for a new hearing on
the petition.
Defendant contended in the petition, among other
things, that he was entitled to a downward modification of his risk
level classification.
His assigned counsel, however, wrote a letter
2(a)

-2-

1074
KA 17-01664

to the court indicating that the petition lacked merit, counsel would
not support the petition, and he had advised defendant to withdraw the
petition so that defendant would not needlessly delay his right to
file a new modification petition in two years. We conclude that
defense counsel "essentially[ ] became a .witness against [defendant]
and took a .position adverse to him," which denied defendant effective
assistance of counsel (People v Caccavale, 305 AD2d 695, 695 [2d Dept
2003]; see People v Freire, 157 AD3d 963, 964 [2d Dept 2018]; People v
Brown, 152 AD3d 1209, 1212 [4th Dept 2017], lv denied 30 NY3d 978
[2017] ) .
In addition, a defendant may.commence a Correction Law
§ 168-o (2) proceeding no more than once annually (see People v
Lashway, 25 NY3d 478, 483 [2015]), thus defense counsel's advice was
incorrect as well as adverse to defendant's position.
Contrary to defendant's contentions in his pro se supplemental
brief, the court did not err in refusing to allow him to challenge his
plea or other aspects of his underlying conviction,
It is well
settled that a SORA proceeding may not be used to challenge the
underlying conviction (see generally People v Buniek, 121 AD3d 659,
659 [2d Dept 20.14], lv denied 24 NY3d 914 [2015]; People v Clavette,
96 AD3d 1178, 1179 [3d Dept 2012], lv denied 20 NY3d 851 [2012];
People v Ayala, 72 AD3d 1577, 1578 [4th Dept 2010], lv denied 15 NY3d
816 [2010] ) .
In light of our determination, we do not address the remaining
contentions in defendant's main brief.

Entered:

November 9, 2018

Mark W. Bennett
Clerk of the Court
3(a)

Supreme Court
APPELLATE DIVISION
Fourth Judicial Department
Clerk's Office, Rochester, N.Y.

I, Mark W. Bennett, Clerk of the Appellate Division of the Supreme Court in
the Fourth Judicial Department, do hereby certify that this is a true copy of the
original order, now on file in this office.

IN WITNESS WHEREOF, I have hereunto set my
hand and affixed the Seal ofsaid Court at the City
ofRochester, New York, this November 9, 2018

S/.'-V.

f

,

. /

f'C-yy iff
Clerk

4(a)

State of New York
Court ofAppeals
Decided and Entered on the
twenty-first day of February, 2019
Pr6S€!lt, Hon. Janet DiFiore, ChiefJudge, presiding.
Mo. No. 2018-1188
The People &c.,
Respondent,
v.
Howard Griffith,
Appellant.

Appellant having appealed to the Court of Appeals and moved for poor person
relief in the above cause;
Upon the papers filed and due deliberation, it is
ORDERED, on the Court's own motion, that the appeal is dismissed, without
costs, upon the ground that the order appealed from does not finally determine the
proceeding within the meaning of the Constitution; and it is further
ORDERED, that the motion for poor person relief is dismissed as academic.

/

5a

John P. Asiello
Clerk of the Court

State of New York
Court ofAppeals
Decided and Entered on the
eleventh day of June, 2019
Present, Hon. Janet DiFiore, ChiefJudge, presiding.
Mo. No. 2019-283
The People &c.,
Respondent,
v.
Howard Griffith,
Appellant.

Appellant having moved for reconsideration of this Court's February 21, 2019
dismissal order;
Upon the papers filed and due deliberation, it is
ORDERED, that the motion is denied.

•/

John P. Asiello
Clerk of the Court

6a

Howard Griffith v New York, DR 19-5746: October 15, 2019: "Certiorari Denied”

Supreme Court of the United States
Office of the Clerk
"Washington, DC 20543-0001
Scott S, Harris
Clerk of the Court
(202) 479-3011

October 15, 2019
Mr. Howard Griffith
2903 James Street
#1R
Syracuse, NY 13206

People v

§r!ff ihh

zo0\-

I

Re: Howard Griffith
v. New York
No. 19-5746

FEED

Dear Mr. Griffith:

(QjfQHB&GtA. CO C1MM3 OFFICE

The Court today entered the following order in the above-entitled case:
The petition for a writ of certiorari is denied.

iI

Scott S. Harris, Clerk

/

7a

.

(Usnxnty (ttimvi
ONONDAGA COUNTY
CRiMlNAL COURTS BUILDING
505 S. STATE STREET, SUITE 370

HON. THOMAS J. MILLER, JUDGE

Syracuse, N.Y. 13202
DAVID A. ROTHSCHILD.
Principal Law Clerk

(315) 671-1056

October 25, 2019
JENNIFER L. WEBS
SECRETARY

Howard Griffith
2903 James Street, Apt. 1R
Syracuse, NY 13206
RE:

People v. Howard Griffith
Indict No. 2001-0883; Index No. 2001-0927

Mr. Griffith:
I have received your recent "omnibus motion" and supplemental submission regarding the
above-referenced matter. It appears that you are seeking an expungement of records regarding this
matter based upon your misunderstanding that the Appellate Division, Fourth Department has
reversed your conviction for Rape in the First Degree. You have also asked me to recuse myself
from participating in future proceedings regarding this matter.
You should be aware that there is no legal basis for me to order the expungement of any
records because the Appellate Division, Fourth Department has not reversed your conviction in this
matter. Rather, the Fourth Department held that you had been deprived of the effective assistance of
counsel with regard to your prior application for a downward modification of your classification as a
level three risk under the Sex Offender Registration Act (SORA). Accordingly, the Fourth
Department reinstated your petition and remitted the matter back to me to conduct a new hearing
(see, People v. Griffith, 166 AD3d 1518). Although I adjourned your hearing date on several
occasions to permit you to seek further appellate review of this determination, the Court of Appeals
declined to grant you further relief. Ultimately, you failed to appear in court for the scheduled
hearing on September 13, 2019 and, given the nature of the correspondence that you have repeatedly
sent to me regarding this matter, it was apparent to me that your failure to appear was willful.
Accordingly, I determined that you had abandoned your-petition.
With regard to your current application for recusal. I would first note that there is not a
pending proceeding before me at this juncture. Moreover, as you have not identified a valid basis in
support of your application, I decline to recuse myself from all possible future proceedings relative to
this matter. Should you elect to file another petition for a downward modification of your SORA
rating in the future, I will certainly consider any concomitant application for recusal at that time.
Very truly yours,

fruy Jc
as J. Miller /
Onondaga County Court
cc:

Kenneth Tyler, Jr., Esq.

8a

Letter/Notice of Court Denying Order to Show Cause: February 03,2020
NEW YORK STATE SUPREME COURT
APPELLATE DIVISION, FOURTH DEPARTMENT
COIMPSE

f

5O

&

z

■ '.<

un

A

f/j

X

Mark W. Bennett

Alan l. Ross

CLERK OF THE COURT

DEPUTY CLERK OF THE COURT

Howard Griffith
2903 James Street, #1R
Syracuse, New York 13206
Re:
i

People v Howard Griffith
Indictment No. 2001-0883-1

Dear Mr. Griffith:
Your application for an order to show cause was presented to the Honorable Brian
F. DeJoseph, and His Honor declined to sign the order to show cause.
fficarely,

Charles P. Cercone
Principal Appellate Court Attorney
CPC:kvs
pc: William J. Fitzpatrick, Esq.

/

9a

Kece'ivecl!
February

County Court Chambers
Hon. Thomas J. Miller
County Court Judge
Onondaga County

ONONDAGA COUNTY CRIMINAL COURT BUILDING
505 SOUTH STATE STREET, SUITE 370
SYRACUSE, NEW YORK 13202
(315) 671-1056
Fax (315) 671-1188

Ui G
David A. Rothschild
Lav/ Clerk
Jennifer Webb
Secretary

February 21, 2020
Nicole Intschert, Esq.
Onondaga County District Attorney's Offir505 S. State Street, 4 “h Floor
Syracuse, NY 13202
Howard Griffith, pro se
2903 James Street, Apt. 1R
Syracuse, NY 13206
Re:

People v. Howard Griffith
Indict No. 2001-0883

Counselor and Mr. Griffith:
On October 25, 2019, the Court issued a letter advising th°
defendant that it
records
, was.denying his request for an expungement of
-l = tcQ l.o tms matter, based upon the defendant's pDn —
misunderstanding that the Appellate Division, Fourth D-part^t^d
reversed his conviction for Rape in the First Degree. As th* coSt
explained, the Fourth Department had merely determined that thbee" ^“ved
^ effective assSee of
counsel

S rrtohfhSeX °f£ender "^“tion

and rSd th" “

. .. .tyk to thls Part to conduct a new hearing (sea, People v.
The court also indicated that it
was
^wC^inin9 to recuse itself from further future proceedings regarding
this matter.
'

The defendant has
■^potential future appeal of°ihe detemiiations^endered^n regard
th«
to

^ta^eaI ir°iS* tns Court's October 25, 2019 letter. As such M-f
.’.lOuion to Settle the record is in all respects DISMISSED,
This
constitutes the decision and order of the Court"
~
very truly yours,

*0 J
Thpmas j. Miller
Onondaga County Court Judge

10a

NEW YORK STATE SUPREME COURT
APPELLATE DIVISION, FOURTH DEPARTMENT
M. DOLORES DENMAN COURTHOUSE
. 50 EAST AVENUE, SUITE 200
ROCHESTER NEW YORK 14604
(585) 530-3IQ0 Fax (585) 530-3247
Mark W. Bennett

Alan l. Ross

CLERK OF THE COURT

DEPUTY CLERK OF THE COURT
'A’.'*.

. •.

J -A L- -ss

pp v- ,;:.May..6, 2020
Howard Griffith
2903 James Street, #1R
Syracuse, New York 13206
Re:

£\\^ (33 j Xtrx®

People v Howard Griffith
Appellate Division Docket No. KA 17-01664

Dear Mr. Griffith:
This Court received your motions dated March 10, 2020, and March 18,2020, which
are being returned without consideration. Your appeal was decided by this Court on
November 9, 2018. Therefore there is nothing pending before this Court.
Sincerely,

Charles P. Cercone
Principal Appellate Court Attorney
CPCikvs
Enclosures
pc: William J. Fitzpatrick, Esq.
William Clauss, Esq.

11a
www. courts, state, ny .us/ad4

f

o

NEW YORK STATE SUPREME COURT
APPELLATE DIVISION, FOURTH DEPARTMENT
'' ,M. DOLORES DENMAN COURTHOUSE
^NpiO-EA^^^Kro^SUlTE^OO
ROCHESTER, NEW YORK 14604 ■
V- (585) 53fo 1.00. Taxi585) 530-3247
Mark W. Bennett

tWvY tT .

CLERK OF THE COURT

::

m/

:

AS

©

ifr# 5\\§u-

f:X z-Zki

&

depnSS

WSB,
Ay,.

Alan l. Ross

iii’v

DEPUTY CLERK OF THE COURT

4

s

v:
_-

-^jRiwwaii

- ~_May 27, 2020:

/L&y
i

1A
>

^vggS"iigf

Howard Griffith
2903 James Street, #1R
Syracuse, New York 13206
Re:

People v Howard Griffith
Indictment No. 2001-0883-1

Dear Mr. Griffith:
Your application for an order to show cause was presented to the Honorable Brian
F. DeJoseph, and His Honor declined to sign the order to show cause. Because Justice
DeJoseph decided not to sign your order to show cause, you were not granted the relief
you requested.
Sincerely,

Charles P. Cercon'e'-'
Principal AppellatesCourt Attorney
CPC:kvs
pc:

William J. Fitzpatrick, Esq.

12a
www.courts.state.ny.us/ad4

o

State ofNew York
Court ofAppeals
Decided and Entered on the
twenty-second day of October, 2020
Present, Hon. Janet DiFiore. ChiefJudge, presiding.
Mo. No. 2020-552
The People &c.,
Respondent.
v.
Howard Griffith,
Appellant.

Appellant having moved for leave to appeal to the Court of Appeals in the above
cause;
Upon the papers filed and due deliberation, it is
ORDERED, that the motion is dismissed upon the ground that the order sought to
be appealed from does not finally determine the proceeding within the meaning of the
Constitution.

dWnpiZrHeather Davis
Deputy Clerk of the Court

13a

